W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-8433

Abdu-Salim Gould

Todd E. Ishee

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Digitally signed by 292e88ee-edc6-4b7d-bf34-bb126787bec7
DN: CN=292e88ee-edc6-4b7d-bf34-bb126787bec7
Reason: I am approving this document
Location:
Date: 2021-07-26 10:10:43
Foxit PhantomPDF Version: 10.0.0

Signature:
Date:

7/26/21

(Type or print) Name Jonathan P. Babb
Mr.

Ms.

Mrs.

Firm

North Carolina Department of Justice

Address

Post Office Box 629

City & State

Raleigh, North Carolina

Phone

919-716-6575

Miss

Zip 27602
Email

jbabb@ncdoj.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Mr. Abdu-Salim Gould

cc:

